U.S. CONSUMER PRODUCT SAFETY COMMISSION




OFFICE OF THE INSPECTOR GENERAL



 SEMIANNUAL REPORT TO CONGRESS



 April 1, 2013 – September 30, 2013
                               EXECUTIVE SUMMARY

    This semiannual report summarizes the major activities
performed by the Office of the Inspector General (OIG),
during the reporting period April 1, 2013 through September
30, 2013. During the reporting period, this office worked
on seven audits or reviews.   At the end of the reporting
period, six audits or reviews and no investigations were in
progress.

     The OIG received a number of complaints during the
reporting period, seven of which resulted in the initiation
of formal investigations. Nine investigations were closed
or transferred during the reporting period.      Management
officials acted on the recommendations made in the
completed investigations from the previous reporting
period.

     The OIG continues to be involved with the Council of
the Inspectors General on Integrity and Efficiency and the
Council of Counsels to the Inspectors General.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   1
                                    INTRODUCTION

U. S. CONSUMER PRODUCT SAFETY COMMISSION

     The U.S. Consumer Product Safety Commission (CPSC) is an
independent federal regulatory agency created in 1972, under the
provisions of the Consumer Product Safety Act (CPSA) (P.L. 92-573)
to protect the public against unreasonable risks of injuries
associated with consumer products. Under the CPSA and the Consumer
Product Safety Improvement Act of 2008 (CPSIA), Congress granted
the CPSC broad authority to issue and enforce standards prescribing
performance requirements, warnings, or instructions regarding the
use of consumer products. The CPSC also regulates products covered
by a variety of other acts, such as the Virginia Graeme Baker Pool
and Spa Safety Act, the Children’s Gasoline Burn Prevention Act,
the Flammable Fabrics Act, the Federal Hazardous Substances Act,
the Poison Prevention Packaging Act, and the Refrigerator Safety
Act.

     The CPSC is headed by five Commissioners appointed by the
President with the advice and consent of the Senate. The Chairman
of the CPSC is designated by the President.             The CPSC’s
headquarters is located in Bethesda, MD.     The agency has field
personnel stationed throughout the country. The CPSC had a budget
of $108.6 million and 548 authorized full-time equivalent positions
for FY 2013.

OFFICE OF THE INSPECTOR GENERAL
     The OIG is an independent office, established under the
provisions of the Inspector General Act of 1978, as amended by the
Inspector General Act Amendments of 1988, and the Inspector General
Reform Act of 2008. The Inspector General Act gives the Inspector
General the authority and responsibility to:

       •   conduct and supervise audits and investigations of
           CPSC programs and operations;




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   2
       •   provide leadership, coordination, and recommend
           policies for activities designed to: (i) promote
           economy, efficiency, and effectiveness in the
           administration of the CPSC’s programs and operations;
           and (ii) prevent and detect fraud, waste, and abuse of
           CPSC programs and operations; and

       •   keep the Chairman and Congress fully and currently
           informed about problems and deficiencies relating to
           the administration of CPSC programs and operations and
           the need for progress or corrective action.

     The OIG investigates complaints and information received
concerning possible violations of laws, rules, and regulations,
mismanagement, abuse of authority, and waste of funds.     These
investigations are in response to allegations, complaints, and
information received from CPSC employees, other government
agencies, contractors, and other concerned individuals.      The
objective of this program is to ensure the integrity of the CPSC
and   ensure  individuals   fair,  impartial,   and  independent
investigations.

     The OIG also reviews existing and proposed legislation and
regulations relating to the programs and operations of the CPSC
concerning their impact on the economy and efficiency in the
administration of such programs and operations.

     The OIG was authorized seven full-time equivalent positions
for FY 2013: the Inspector General, a Deputy Inspector General for
Audits, an office manager, an Information Technology auditor, and
three line auditors.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress       3
                                   AUDIT PROGRAM
     During this period, the OIG worked                         on   seven   audits   and
reviews. A summary of each follows:


AUDIT OF FINANICAL STATEMENTS (ongoing)

     The Accountability of Tax Dollars Act of 2002 requires that
the CPSC and other smaller agencies, which had not been required to
perform annual financial audits in the past, begin performing
annual audits of their financial statements. This audit is being
performed to meet this statutory requirement.

     The objectives of this audit are to ensure that the CPSC is
meeting its responsibilities for: (1) preparing the financial
statements in conformity with generally accepted accounting
principles; (2) establishing, maintaining, and assessing internal
controls to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are
met; (3) ensuring that the CPSC’s financial management systems
substantially comply with statutory requirements; and (4) complying
with other generally applicable laws and regulations.

     To conduct this audit, the CPSC OIG contracted with
CliftonLarsonAllen, an independent certified public accounting
firm. The contract requires that the audit be performed in
accordance with generally accepted government auditing standards
and the Financial Audit Manual.


       This audit is scheduled for completion in November 2013.


FEDERAL INFORMATION SECURITY                     MANAGEMENT      ACT    REPORTING
REQUIREMENTS (ongoing)

     The Federal Information Security Management Act of 2002
(FISMA) requires each federal agency to develop, document, and
implement an agency-wide program to provide information security
for the information and information systems that support the

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                         4
operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source.

     FISMA requires agency program officials, chief information
officers, and inspectors general to conduct annual reviews of the
agency’s information security program and report the results to the
Office of Management and Budget (OMB). OMB uses this data to assist
in its oversight responsibilities and to prepare this annual report
to Congress on agency compliance with the Act.

     FISMA assigns specific responsibilities to federal agencies,
the National Institute of Standards and Technology (NIST), and OMB
to strengthen information system security.

     This review will measure agency compliance with FISMA
requirements and is scheduled for completion in November 2013.


AWARDS PROGRAM AUDIT (ongoing)

     The goal of the CPSC’s Awards program is to motivate
employees by recognizing and rewarding those who attain high
levels of performance, thereby contributing to the
accomplishment of management goals and objectives. The Awards
Program was designed to encourage employees, both as individuals
and in groups, to increase productivity and improve the
efficiency and economy of federal government operations.

     The objectives of this audit are to ascertain the program’s
compliance with laws and regulations and to measure the
effectiveness of the program.

     To conduct this audit, the CPSC OIG contracted with
WithumSmith+Brown (WS+B), an independent certified public
accounting firm. The contract requires that the audit be
performed in accordance with generally accepted government
auditing standards.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    5
AUDIT OF TRAVEL CHARGE CARD PROGRAM

     The Government Travel Charge Card program is designed to
provide travelers with a safe and efficient way to pay for
expenses associated with official travel. The General Services
Administration (GSA) administers government travel cards through
its SmartPay program. Each agency selects one of the five banks
contracted by GSA as their travel card provider and negotiates
their own task order under the SmartPay master contract. The
task order identifies the specific charge card services the
selected bank will provide the agency, and it documents the
agreed-upon fees, including additional negotiated rebate
percentages.

     While responsibility for payment rests with the individual,
agencies also have a responsibility, as well as a financial
incentive, to ensure that accounts are paid timely and in full.
GSA’s master contract describes the agencies’ travel card
program responsibilities. These include ensuring that
cardholders use the card only for authorized purposes, notifying
the employee and management of delinquent accounts, taking
appropriate disciplinary action, and, as a last resort,
collecting the overdue amount from the employee through salary
offsets. Because unpaid account balances reduce the amount of
the rebate the agency receives, it is important that the agency
minimize delinquent accounts. Monitoring and managing
delinquencies also helps the agency avoid potential negative
publicity that can come from unpaid accounts.

Overall, we found that the CPSC does have a functioning Travel
Card Program. However, management officials have not fully
implemented all of the internal controls mandated by the Federal
Travel Regulations (FTR) and the Office of Management and Budget
(OMB) to mitigate risks associated with the Travel Card Program.

We found that some CPSC employees used their government-issued
travel cards in ways that are not appropriate, including:
purchasing meals while not on official travel; using the travel
card to pay a government license renewal fee; and purchasing
sample items with cash obtained from automated teller machines
(ATM). Other employees made ATM cash withdrawals that exceeded
the amount authorized (no employee is authorized to make a cash

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   6
withdrawal exceeding the total per diem amount to which they
were entitled for the trip as a whole). These inappropriate
uses totaled $7,993.20. Furthermore, we found that the CPSC had
not properly designed internal controls to monitor improper and
erroneous transactions; nor had the CPSC developed written
guidance to address improper card usage.

The CPSC was not in compliance with various requirements
mandated by OMB Circular A-123, Appendix B. The Division of
Financial Services (FMFS) had not established proper initial
training for the approving, authorizing, and certifying
officials; nor had FMFS established the required refresher
training courses. We found that FMFS had not adhered to the
guidelines for travel card recovery procedures set out in OMB
Circular A-123, Appendix B. Finally, we found that the CPSC had
not properly assessed the risks associated with the Travel Card
Program, as required by OMB; nor had the CPSC implemented the
risk management controls, policies, and practices required by
the OMB.

We found that the Travel Card Program lacked adequate oversight
to prevent fraud and other forms of waste and abuse. The OIG
found problems with the design, implementation, and/or
operational effectiveness of the internal controls tested. We
identified internal control weaknesses in multiple areas of the
Travel Card Program. FMFS did not adequately update the
directives associated with the Travel Card Program; we found
these directives to be inconsistent with the current versions of
the FTR and OMB Circular A-123, Appendix B. FMFS had not
established oversight controls that properly monitored centrally
billed account (CBA) activity, specifically, FMFS had not
ensured proper and effective use of the CBA account, monitored
CBA account activity, or ensured proper supporting documentation
of CBA charges and reconciliations. As a result, we found two
transactions that were improperly charged and paid on the CPSC’s
behalf. In addition, the CPSC did not have adequate oversight
controls over travel transactions. The Accounting Service
Provider could not locate the proper documentation to support
travel transactions totaling $11,324.22. We also identified
$665.96 in improper travel voucher reimbursements.



________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   7
The CPSC’s management concurred with the findings and
recommendations cited in our report but noted that they had
already undertaken corrective actions.

GOVERNMENT PERFORMANCE AND RESULTS ACT AUDIT (ongoing)

     The Government Performance and Results Act of 1993 (GPRA
1993), as amended by the GPRA Modernization Act of 2010 (P.L.
111-352), requires the CPSC to report annual performance data.
GPRA is intended to improve the efficiency and effectiveness of
Federal Programs through the establishment of specific goals for
program performance. Specifically, the act requires the CPCS to
prepare multi-year Strategic Plans, Annual Performance Plans,
and Annual Performance Reports.

     The objectives of this audit are to verify and validate
(reliability) a sample of performance data published in the
CPSC’s annual performance reports used to measure the
performance of CPSC’s programs. This audit should both
ascertain CPSC’s compliance with GPRA, as amended, and determine
whether the performance data published complies with established
guidance, and is reliable.

     To conduct this audit, the CPSC OIG contracted with
WithumSmith+Brown (WS+B), an independent certified public
accounting firm. The contract requires that the audit be
performed in accordance with generally accepted government
auditing standards.


INFORMATION TECHNOLOGY INVESTMENT MANAGEMENT AUDIT (ongoing)

     The CPSIA calls for upgrades of the CPSC’s information
technology architecture and systems and the development of a
database of publicly available information on incidents
involving injury or death. The CPSIA also calls for the OIG to
review the agency’s efforts in these areas.

     To assess objectively the current status of the CPSC’s
efforts in this area, and to help provide the agency with a road
map to meet the goals set out in the CPSIA, this office has
relied upon the Government Accountability Office’s (GAO’s)
Information Technology Investment Maturity (ITIM) model. The
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   8
ITIM framework is a maturity model composed of five progressive
stages of maturity that an agency can achieve in its IT
investment management capabilities. The maturity stages are
cumulative; that is, in order to attain a higher stage of
maturity, the agency must have institutionalized all of the
requirements for one stage, in addition to the requirements for
all of the lower stages.

     The framework can be used to assess the maturity of an
agency’s investment management processes as a tool for
organizational improvement.

     The GAO’s ITIM maturity model framework offers
organizations a road map for improving their IT investment
management processes in a systematic and organized manner.
These processes are intended to: improve the likelihood that
investments will be completed on time, within budget, and with
the expected functionality; promote better understanding and
management of related risks; ensure that investments are
selected based upon their merits by a well-informed decision-
making body; implement ideas and innovations to improve process
management; and increase the business value and mission
performance of investments.

     Under a contract monitored by the OIG, the independent
certified public accounting firm WithumSmith+Brown (WS+B),
performed an audit of the CPSC’s Information Technology (IT)
investment management processes, using the GAO’s ITIM framework.

     According to WS+B’s findings, at the time of their initial
audit, the CPSC had reached Stage 1 of the five-stage IT
investment maturity model. The CPSC had already implemented
several of the key practices and critical processes that
constitute Stage 2, and WS+B provided recommendations on
improving the CPSC’s IT investment processes. WS+B later
conducted a follow-up assessment of the CPSC’s IT investment
process and determined that although progress had been made, the
CPSC was still at Stage 1.

     Another contract has been awarded to WS+B to review the
CPSC’s Information Technology Architectures with a special
emphasis on the public database. Once again, the review is

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   9
being conducted using the GAO’s ITIM framework (A Framework for
Assessing and Improving Process Maturity, GAO-04-394G).

     The audit will build upon the results of the prior
assessments of the CPSC’s IT investment management maturity and
will evaluate what improvements have been made and where
additional progress is needed.


FREEDOM OF INFORMATION ACT (FOIA) AUDIT (ongoing)

     The Freedom of Information Act (FOIA) provides that any
person has a right, enforceable in court, to obtain access to
federal agency records, except to the extent that such records
(or portions of them) are protected from public disclosure by
one of nine exemptions or by one of three special law
enforcement record exclusions. A FOIA request can be made for
any agency record.

     The objectives of this audit are to ascertain the CPSC’s
FOIA program’s compliance with laws and regulations and to
measure the effectiveness of the program.



EMPLOYEE CLEARANCE PROCEDURES AUDIT (ongoing)

     It is CPSC policy that employees separating from the agency
be cleared by appropriate CPSC personnel prior to their
departure to ensure that the employee has accounted for property
entrusted to them, liquidated all debts owed to the Commission,
and fulfilled any other outstanding obligations.

     The objectives of this audit are to ascertain the Clearance
program’s compliance with laws and regulations and measure the
effectiveness of the program.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    10
                       INVESTIGATIVE PROGRAM
      A number of individuals contacted the OIG during the
reporting period to discuss their concerns about matters involving
CPSC programs and activities.     Seven of the individuals filed
formal complaints, alleging waste, fraud, abuse, or mismanagement
of CPSC resources. These complaints resulted in the initiation of
seven investigations.   Several matters were transferred to CPSC
officials (management or EEOC) or to other government agencies for
final disposition after initial investigation indicated that these
cases would be dealt with more appropriately outside of IG
channels.    Several investigations were closed after initial
investigation determined that no action was required.

                                  Investigations
                                                                No. of Cases
                Beginning of period                                  2
                Opened                                               7
                Closed                                               5
                Transferred/Incorporated                             4
                  into existing investigation
                End of the period                                   0

REPORTABLE INVESTIGATIONS
     Antideficiency Act Violation – Between on or about January
1, 1996 and September 25, 2013, the Consumer Product Safety
Commission was, without legal authority, using appropriated
funds to pay for residential telephone and Internet service for
certain employees. 1 This constituted a violation of 31 U.S.C. §
1348, the Purpose Statute; 31 U.S.C. § 1301, which deals with
the use of appropriated funds to pay for telephones in private
residences; and the Antideficiency Act, 31 U.S.C. § 1341.
Although Public Law 104-52 authorizes federal agencies to use
appropriated funds to pay certain expenses for employees
authorized to work at home, this authority exists only if an

1
  The lack of documentation regarding the program in question prevents the
determination of definitive starting date, but the statute in question became
effective on October 1, 1995, and CPSC employees have indicated that
telephone and Internet Service reimbursements have been made since “the
telecommuting program began in 1996.”
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                  11
appropriate agency official certifies that adequate safeguards
against private misuse exist; such safeguards do, in fact,
exist; and the service is necessary for direct support of the
agency’s mission. During the period covered by this
investigation, no certification was made and adequate safeguards
against private misuse did not exist at the CPSC. The agency
was unable to provide adequate records to determine the extent
and size of the violation. For a variety of reasons, including
a change in financial management systems, relevant records were
not available regarding transactions that occurred prior to
fiscal year 2007. However, based on the records that are
available, it is clear that since October 1, 2006, more than
$1,208,424 have been expended without legal authority. Despite
the violation’s lengthy and continuous nature, there is no
evidence the violation was knowing and willful. Therefore,
there was no requirement that the violation be referred to the
U.S. Department of Justice for criminal investigation. The
agency has already taken corrective action to prevent a
reoccurrence.

     Alleged Misconduct by a Government Employee – (This
investigation was initiated to inquire about the validity of
allegations that the subject inappropriately directed the purchase
of iPhones, issued them to “selected IT staff” (NFI), and failed to
have the iPhones entered into the property management system (PMS).
These allegations were made by a complainant who wished to remain
anonymous. The complainant indicated fear that he would lose his
job if his identity became known to agency management.          The
decision-making processes regarding the selection of the iPhone for
testing and the number to be acquired were undocumented but appear
on their face to be reasonable. However, the manner in which the
iPhones were acquired was improper, and the iPhones were not
entered into the CPSC’s property management system (PMS), as
required by CPSC directives.

     Alleged Misconduct by a Government Employee – The subject of
the investigation resigned rather than be questioned regarding the
alleged misappropriation of funds. As the Department of Justice
had already declined criminal jurisdiction over the case, this
office had no jurisdiction over the member once he resigned.
Preliminary investigation indicated that it was more likely than
not that the subject committed the offenses alleged.           The
investigation was closed due to a lack of jurisdiction.
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   12
ONGOING INVESTIGATIONS

       No investigations were ongoing at the end of the period.

                                OTHER ACTIVITIES

LEGISLATION AND REGULATIONS

     The OIG reviews internal and external legislation and
regulations that affect the OIG specifically, or the CPSC’s
programs and activities, generally. Procedures applicable to the
following subjects were reviewed and commented upon during the
reporting period:

       Federal Transit Benefit Program
       Consumer Product Safety Improvement Act
       Consumer Product Safety Act
       Use of Social Media by the CPSC
       Training of Managers and Supervisors
       Agency Privacy Program
       Hatch Act
       Conflict of Interest
       Federal Information Security Management Act
       Purchase Card Program
       Travel Card Program
       Changes in Agency Financial Management Policies
       Anti-Deficiency Act
       Federal Service Labor-Management Relations Statute
       Merit System Principles
       Prohibited Personnel Practices
       Telework Policies
       Gift Travel
       Improper Payments Elimination and Recover Act




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress     13
COUNCIL OF INSPECTORS GENERAL ON INTEGRITY AND
EFFICIENCY

     The Inspector General, as a member of the Council of
Inspectors General on Integrity and Efficiency (Council),
maintains active membership with the Council and its associated
activities. The Council identifies, reviews, and discusses
issues that are of interest to the entire IG community. The
Inspector General attended regular meetings held by the Council
and joint meetings of the Council and GAO. The OIG’s staff
attended seminars and training sessions sponsored or approved by
the Council and its associated activities.

COUNCIL OF COUNSELS TO THE INSPECTORS GENERAL

     The Inspector General is a member of the Council of Counsels
to the Inspectors General. The Council considers legal issues of
interest to the Offices of Inspectors General. During the review
period, the Council reviewed existing and pending laws affecting
the CPSC, in general, and to the Office of the Inspector General,
specifically; and the Council provided other support to the
Inspector General, as needed.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   14
                                                                              Appendix A



                  REPORTING REQUIREMENTS SUMMARY
Reporting requirements specified by the Inspector General Act of 1978, as amended, are listed
below:

      Citation                    Reporting Requirements                               Page

Section 4(a)(2)       Review of Legislation and Regulations……………………………………………14

Section 5(a)(1)       Significant Problems, Abuses, Deficiencies……………………………4-13

Section 5(a)(2)       Recommendations with Respect to Significant Problems,
                      Abuses, and Deficiencies……………………………………………………………………………4-13

Section 5(a)(3)       Significant Recommendations Included in Previous Reports
                      On Which Corrective Action Has Not Been Taken………………………NA

Section 5(a)(4)       Matters Referred to Prosecutive Authorities……………………………NA

Section 5(a)(5)       Summary of Instances Where Information Was Refused…………NA

Section 5(a)(6)       Reports Issued…………………………………………………………………………………………………………4-13

Section 5(a)(7)       Summary of Significant Reports………………………………………………………………4-13

Section 5(a)(8)       Questioned Costs……………………………………………………………………………………………………NA

Section 5(a)(9)       Recommendations That Funds Be Put to Better Use…………………NA

Section 5(a)(10)      Summary of Audit Report Issued Before the Start of
                      the Reporting Period for Which No Management
                      Decision Has Been Made……………………………………………………………………………………NA

Section 5(a)(11)      Significant Revised Management Decisions……………………………………NA

Section 5(a)(12)      Management Decisions with Which the Inspector General
                      Is in Disagreement………………………………………………………………………………………………NA

Section 845 of        Significant Contract Audit Reports……………………………………………………NA
The NDAA of 2008




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                                   15
                                                                Appendix B



                             PEER REVIEW RESULTS
The last peer review conducted by another Office of Inspector General on the
CPSC’s OIG was issued on May 23, 2011, and the peer review is available on
the CPSC OIG’s Web page. All recommendations made in that peer review have
been implemented.

The last peer review conducted by the CPSC’s OIG of another Office of
Inspector General occurred on December 9, 2010, and that peer review involved
the National Endowment for the Humanities’ Office of Inspector General (NEH
OIG). No deficiencies were noted, and no formal recommendations were made in
that review.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                16
